tl 7 t‘•,,,ot

AL

Supreme Court, U.S.
FILED

18 September 2021 3:52 PM

SEP 1 3 2021

DOCKET NO.1

OFFICE OF THE CLERK

(See: Docket N 20-8176)

In The

Supreme Court of the United States

On Emergency Petition for Writ of Prohibition to The District Court for the
Western District of Pennsylvania

IN RE: PETITION2 OF LESLIE WILLIS FOR WRIT OF PROHIBITION

Leslie Willis
P.O. Box 1153, Bowie, MD
Maryland 207183
lwillis222@Yahoo.Com

1

'See: Docket No. 20-8176
2

Also presented as a Motion for Writ of Prohibition, supplemental to Docket No. 20-8176.

3

Petitioner's last legal address. At this time, Petitioner is in Pittsburgh, PA. Petitioner is domiciled

NRECEIVED
SEP 2.'i 2021
CLERK
clu
FfIRcEkiiR
FT5 CT L

18 September 2021 3:52 PM

QUESTION PRESENTED
Whether the Court should issue a WRIT OF PROHIBITION that the District
Court for the Western District of Pennsylvania is prohibited from entering any
order with prejudice, on the Fed.R.Civ.P. 27 Petition to Perpetuate Evidence
Pertaining to the Trust for Annie Pearl (White) Willis' (Docket No. 20-1833); and
further issue a WRIT IN MANDAMUS/MANDATE that the District Court shall
state what Fed.R.Civ.P. Rule 27 requirements are not met in the 'Second Amended
Petition' (ECF Document No. 126-2); and further issue a WRIT OF PROHIBITION
that the Motion for Leave to File the 'Second Amended Petition' (ECF Document
No. 126-2) and/or a 'Motion for Leave to File a Third Amended Petition' in the
Fed.R.Civ.P. 27 Petition (Docket No. 20-1833) shall not be Denied.

2

18 September 2021 3:52 PM

LIST OF PARTIES
Leslie Willis, Petitioner
The District Court for the Western District of Pennsylvania, Respondent

RELATED4 CASES

Petitioner's 'Petition for Writ of Certiorari,' (Docket #20-8170 is currently
pending in this Court. On July 15, 2021, the Petition was Distributed for the
September 27, 2021 Conference. The Petition for Certiorari involves fundamental,
substantive, Constitutional rights to property (Due Process Clause' and 'Petition
Clause').
Petitioner has also filed an 'Emergency Petition for Writ of Mandamus' to
PNC Bank, N.A. and The PNC Financial Services Group, Inc. ("PNC”).

Other Petitions filed by Petitioner in this Court.
Due to Covid-19 law library closures during the preparation of the May 3, 2021 'Petition for Writ of Certiorari,'
and due to pending Court matters (i.e. Petition for Extraordinary Writs; and District Court Docket # 20-1833),
Petitioner has not been able to fully prepare the Petition for Writ of Certiorari (Docket #20-8176). If Petitioner's
Petition for Writ of Certiorari (Docket #20-8176) is not reviewed by the Court, Petitioner intends to file a 'Petition
4

5

for Panel Re-Hearing.'
3

18 September 2021 3:52 PM

TABLE OF CONTENTS
OPINIONS BELOW

5, 8

JURISDICTION

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

10

STATEMENT OF THE CASE

3

REASONS FOR GRANTING THE WRIT

3

CONCLUSION

7

INDEX TO APPENDICES ("EXHIBITS")
(See Attached)

TABLE OF AUTHORITIES
(See Attached)

4

18 September 2021 3:52 PM

OPINIONS BELOW
The opinions of the United States District Court for the Western District of
Pennsylvania, which are the subject of this Petition, are at Docket No. 20-1833 of
the 'Petition of Leslie Willis to Perpetuate Evidence of 'The Trust for Annie Pearl
(White) Willis' appear as follows:
Appendix A— Magistrate Judge Memorandum Order ECF Document #68
Appendix B - Magistrate Judge Memorandum Order ECF Document #134
Appendix C - District Judge Memorandum Order Re: Magistrate Judge Order (ECF
No. 134) Denying Motion to File Second Amended Petition (ECF No. 126 et. seq.)
ECF Document #139

5

18 September 2021 3:52 PM

JURISDICTION
The Supreme Court jurisdiction is invoked, herein, pursuant to Fed.R. App.P
Rule 21, 28 U.S. Code § 1651 — Writs;6 and/or pursuant to § 1367(a) - Supplemental
Jurisdiction (See footnote #2). The Court's relevant equity powers are invoked.

CONSTITUTIONAL PROVISIONS

U.S.C.A. Const. Amend. Xiv, § 1- Due Process Clause; and
U.S.C.A. Const. Amend. Xiv, § 1- Equal Protection Clause of the Fourteenth
Amendment (Section 1) of the United States Constitution; First Amendment of the
U. S. Constitution,
U.S.C.A. Const. Amend. I - right to Petition the government for redress of
grievances;
STATUTORY PROVISIONS
28 U.S. Code § 1651 - "(a) The Supreme Court and all courts established by Act of
Congress may issue all writs necessary or appropriate in aid of their respective
jurisdictions and agreeable to the usages and principles of law...;"

28 U.S. Code § 1651 - "(a) The Supreme Court and all courts established by Act of Congress may issue all writs
necessary or appropriate in aid of their respective jurisdictions and agreeable to the usages and principles of
law...;" 28 U.S.C. § 2201(a) "In a case of actual controversy within its jurisdiction ...any court of the United States,
upon the filing of an appropriate pleading, may declare the rights and other legal relations of any interested party
seeking such declaration, whether or not further relief is or could be sought. Any such declaration shall have the
force and effect of a final judgment or decree and shall be reviewable as such."
6

6

18 September 2021 3:52 PM

Fed.R.Civ.P. 27(a) - Before an Action Is Filed. (1) Petition. A person who wants to
perpetuate testimony about any matter cognizable in a United States court may file
a verified petition in the district court for the district where any expected adverse
party resides. The petition must ask for an order authorizing the petitioner to
depose the named persons in order to perpetuate their testimony. The petition must
be titled in the petitioner's name and must show: (A) that the petitioner expects to
be a party to an action cognizable in a United States court but cannot presently
bring it or cause it to be brought; (B) the subject matter of the expected action and
the petitioner's interest; (C) the facts that the petitioner wants to establish by the
proposed testimony and the reasons to perpetuate it; (D) the names or a description
of the persons whom the petitioner expects to be adverse parties and their
addresses, so far as known; and (E) the name, address, and expected substance of
the testimony of each deponent.
28 U.S.C. § 2201(a) "In a case of actual controversy within its jurisdiction ...any
court of the United States, upon the filing of an appropriate pleading, may declare
the rights and other legal relations of any interested party seeking such declaration,
whether or not further relief is or could be sought. Any such declaration shall have
the force and effect of a final judgment or decree and shall be reviewable as such."
28 U.S.C. §1915(e)(2)(3)(0 and (ii) - Proceedings in forma pauperis - ...[T]he court
shall dismiss the case at any time if the court determines that—...(B) the action or
appeal—(i) is frivolous or malicious; (ii) fails to state a claim on which relief may be
granted."
7

18 September 2021 3:52 PM

42 Pa., C.S. § 7533 - Any person interested under a deed, will, written contract, or
other writings constituting a contract, or whose rights, status, or other legal
relations are affected by a statute, municipal ordinance, contract, or franchise, may
have determined any question of construction or validity arising under the
instrument, statute, ordinance, contract, or franchise, and obtain a declaration of
rights, status, or other legal relations thereunder.

RULES
Fed.R.Civ.P. Rule 12(b)(6) Motion to Dismiss

CASE LAW

In re Application of Clieckosky, 142 F.R.D. 4, 8 n.2 (D.D.C. 1992) as to a
Fed.R.Civ.P. 27 Petition

8

12 September 2021 4:42 PM

AND NOW, on this 12-September 2021, Petitioner, Leslie Willis, Pro Se,
proceeding in forma pauperis, files this 'Emergency Petition for Writ of Prohibition
to The District Court for the Western District of Pennsylvania and, respectfully,
states the following:
Petitioner is proceeding pro se and in forma pauperis in this Court.
Petitioner's `Petition for. Writ of Certiorari,' is currently pending in this Court
(Please see: Docket # 20-8176). On July 15, 2021, the Petition was
Distributed for the September 27, 2021 Conference. The Petition for
Certiorari involves fundamental, substantive, Constitutional rights to
property (`Due Process Clause' and 'Petition Clause'). Please see also:
Petitioner's Petition for Writ of Mandamus to PNC Bank, N.A. and The PNC
Financial Services Group, Inc. ("PNC"), filed on August 27, 2021.
The Supreme Court jurisdiction is invoked, herein, pursuant to Fed.R. App.P
Rule 21, 28 U.S. Code § 1651 — Writs;4 and/or pursuant to § 1367(a) Supplemental Jurisdiction (See footnote #2). This Court also has Jurisdiction
pursuant to 28 U.S.C. § 2201(a) - Creation of remedy (i.e. Declaration of
Rights). The Court's relevant equity powers are invoked.

writs
28 U.S. Code § 1651 - "(a) The Supreme Court and all courts established by Act of Congress may issue all
of
principles
and
necessary or appropriate in aid of their respective jurisdictions and agreeable to the usages
States,
United
the
of
court
...any
jurisdiction
law...;" 28 U.S.C. § 2201(a) "In a case of actual controversy within its
party
interested
any
of
relations
legal
other
and
rights
the
upon the filing of an appropriate pleading, may declare
the
have
shall
declaration
such
Any
sought.
be
could
or
is
relief
further
not
or
seeking such declaration, whether
such."
as
reviewable
be
shall
and
decree
or
judgment
force and effect of a final

4

2

12 September 2021 4:42 PM

The Internal Revenue Service (IRS) identified a 'Trust for Annie Pearl
(White) Willis'("Trust") 6 (Please See: 'Petition of Leslie Willis to Perpetuate
Evidence of the Trust for Annie Pearl (White) Willis,' filed in the District
Court for the Western District of Pennsylvania, Docket No. 20-01833, ECF
Documents No. 32.7 - Internal Revenue Service (IRS) letter indicating "The
Trust for Annie Pearl (White) Willis"). The Trust involves substantial Trust
funds and real estate assets.
Petitioner is an Heir, Legacy, Beneficiary, and Devisee of the Estate of Annie
Pearl Willis', and has a legal right pursuant to 42 Pa. C.S. § 75337 to a
determination of rights to 'The Trust for Annie Pearl White Willis' ("Trust")
(See: Declaration of Leslie Willis as Heir - ECF Document No. 128, Filed on
8-20-2021). Petitioner believes that she is the sole beneficiary8 of the Trust
(See: ECF Document No. 126-2, p. 7-8).
Petitioner intends to present, in this Court, a supplemental Action for
Declaration of Beneficiary Rights to the 'Trust for Annie Pearl (White)
Willis'("Trust"); and a supplemental Action for declaration of rights to real

Annie Pearl (White) Willis (or "Annie Pearl Willis," or "Annie P. Willis") is Petitioner's Grandmother, deceased
November 20, 2010; Estate opened January 20, 2011; Letters Testamentary granted to Dolores Willis, Annie Pearl
(White) Willis's daughter, Petitioner's Aunt. Petitioner is an Heir, Legacy, Beneficiary, and Devisee of the Estate,
and the first born of Annie Pearl (White) Willis' son, John Arthur Willis, Sr. (Pre-deceased).
and mail documents.
6 Petitioner, proceeding in forma pauperis, does not have funds, at this time, to print
References, herein, to Exhibits are filed in the District Court for the Western District of Pennsylvania (Docket # 2001833). See ECF Document No. 126-2 - Second Amended Petition; and ECF Document No. 129, Table of Exhibits.
42 Pa. C.S. § 7533 - Any person interested under a deed, will, written contract, or other writings constituting a
contract, or whose rights, status, or other legal relations are affected by a statute, municipal ordinance, contract,
or franchise, may have determined any question of construction or validity arising under the instrument, statute,
ordinance, contract, or franchise, and obtain a declaration of rights, status, or other legal relations thereunder.
6 Petitioner

reserves all of her rights regarding and relating to the Trust and the real estate at 267 William Street.

3

12 September 2021 4:42 PM

estate located in Allegheny County, Pennsylvania, at 267 William Street,
Pittsburgh, Pennsylvania, 15203 (Lot/Blk./Parcel ID# 4-H-229) ("real
estate").9 (Exhibits ECF No. 131 — Declarations of Intent to File Actions for
Declaration of Rights). However, Petitioner cannot do so without, at least,
the Trust Instrument and the Beneficiary Designation disclosed, at least
initially, to Petitioner, and also the Safe Deposit Records for the Trust.
The Trust disclosed, would provide evidence that the Trust exists, and
evidence of the Trust Beneficiary; as well as evidence relating to the
circumstances of the sale of the real estate (e.g. evidence that the Trust funds
were withheld from Petitioner at the time of sale of the real estate;10 evidence
of breach of fiduciary duty; and evidence pertaining to aiding and abetting a
breach of fiduciary duty as to the real estate); and would also make funds
available for Petitioner to proceed with an Attorney, in this Court; and/or in
post-judgment motions that she, otherwise, intends to file in the Court of
Appeals for the Third Circuit, due by December 2, 2021; and/or in the event of
further proceedings in the District Court for the Western District of
Pennsylvania.
In a Fed.R.Civ.P. Rule 27 Petition, currently pending in the District Court for
the Western District of Pennsylvania, to perpetuate evidence of 'The Trust for

See footnote #7 re: 42 Pa. C.S. § 7533.
is Polanco Estate (no. 1) 80 pa. D. & c. 436 (see p. 438-439) —"It would seem that the personal estate is still the
own whim
primary fund for payment of debts and that a personal representative cannot simply, for the sake of his
the heirs
of
interests
and
rights
the
of
disregard
total
in
estate
real
or desire, embark upon disposing of decedent's
kind.
in
estate
real
the
of
distribution
accept
to
willing
is
heir
enting
or devisees" —"non(-]ass

9

4

12 September 2021 4:42 PMT

Annie Pearl (White) Willis, the District Judge entered an Order (District
Court for the Western District of Pennsylvania, Docket No. 20-01833, ECF
Document No.139) affirming a Magistrate Judge Order (ECF Document
No.134), denying Petitioner's 'Motion for Leave to File Second Amended
Petition' (ECF Document No.126-2). 11
9. In the Magistrate Judge's Orders (ECF Document No.68; and ECF Document
No.134), the Magistrate Judge states that Petitioner has not met the
requirements of a Fed.R.Civ.P. Rule 27 Petition. However, the Magistrate
Judge does not state, specifically, what Fed.R.Civ.P. Rule 27 requirements
are not met in the 'Second Amended Petition' (ECF Document No. 126-2)
(See: ECF Document No. 134). Petitioner avers that she has sufficiently met
the requirements of a Fed.R.Civ.P. Rule 27 Petition (See: 'Second Amended
Petition' ECF Document No. 126-2, p 3-29).
10.The District Court is now considering a sua sponte decision to dismiss the
Fed.R.Civ.P. Rule 27 Petition (See: ECF Document No. 68; see also ECF
document No. 70), citing 28 U.S.C. §1915(e)(2)(B)(i) and (ii)12 - Proceedings in
forma pauperis; and considering a PNC Bank, N.A. and The PNC Financial

November 25, 2020, Petitioner filed the Fed.R.Civ.P. Rule 27 Petition (District Court for the Western District
of Pennsylvania, Docket # 20-01833) during Covid-19 law library closures and restrictions — Due to Covid-19,
Petitioner had very limited access to a computer and law library resources. Petitioner filed an 'Amended Petition'
on January 27, 2021 (at ECF Document No. 27). In response to the Magistrate Judge Order (at ECF Document No.
68), Petitioner filed a 'Second Amended Petition' (at ECF Document No. 126-2). Petitioner also filed a Table of
Exhibits for the Petition (at ECF Document No. 129).
the action or appeal—(i) is
17 "...(1)he court shall dismiss the case at any time if the court determines that—...(B)
frivolous or malicious; (ii) fails to state a claim on which relief may be granted...

11 On

5

12 September 2021 4:42 PM

Services Group, Inc. ("PNC") Fed.R.Civ.P. Rule 12(b)(6) Motion to Dismiss
the Petition, with prejudice.
A WRIT OF PROHIBITION SHOULD ISSUE BECAUSE:
In the Motion to Dismiss the Fed.R.Civ.P. 27 Petition (Opposing Counsel
Brief, ECF Document No. 75, p. 212), PNC states that "PNC has properly
denied Petitioner's requests, repeatedly apprising her that PNC cannot and
will not provide Petitioner with confidential financial information regarding
accounts and/or trusts held by PNC, including the existence of accounts, for
which she is not an authorized signer. Petitioner is not, nor has she ever
been, authorized to inquire about or receive the information that she seeks
from PNC in this Petition."13 However, in the Fed.R. Civ.P. 27 Petition, PNC
has not claimed any privilege or filed any action for protective order; and
cannot claim privilege of a third-party authorized signer for the Trust. PNC's
Rule 12(b)(6) Motion to Dismiss the Petition is an abuse of process intended
to further conceal the Trust, while collecting fees on the Trust for almost
eleven (11) years now.
PNC has been holding the 'Trust for Annie Pearl (White) Willis' for almost
eleven (11) years now, collecting fees on the Trust, while refusing to disclose
the Trust to the Beneficiary. Petitioner has made many requests for

The Trust is known evidence (See: Exhibit ECF No. 3.2 - Internal Revenue Service (IRS) letter indicating "The Trust
for Annie Pearl (White) Willis") (See: ECF No. 31.9, Letter 2013 from PNC requesting person authorized to receive
information regarding Annie Pearl Willis's accounts - Annie Pearl Willis did her banking at PNC) (See: 'Second
Amended Petition' ECF Document No. 126-2, 'Statement of Claims,' p. 7-8). Petitioner believes she is the sole
beneficiary of the Trust.
6

12 September 2021 4:42 PM

disclosure of the Trust (Correspondence to PNC requesting disclosure of
Trust - ECF Document No. 31.1 thru 31.11; See Also: Correspondence to
Dolores Willis - ECF Document No. 32 thru 32.6). PNC will not disclose the
`Trust for Annie Pearl (White) Willis' to Petitioner without a Court Order
(See: ECF Document Nos. 31.1 thru 31.11 for correspondence, including
certified mail, sent to PNC requesting disclosure of the Trust) (See Also: ECF
Document No. 129.14 - PNC Adversarial (Hostile) Correspondence (20132014)). Petitioner is prejudiced by a continued delay and refusal to disclose
the Trust.
Petitioner is an Heir, Legacy, Beneficiary, and Devisee of the Estate of Annie
Pearl Willis', and has a legal right, pursuant to 42 Pa. C.S. § 7533, to a
determination of rights to the Trust.
Petitioner would be unduly prejudiced by any unjust dismissal of the
Fed.R.Civ.P. 27 Petition to Perpetuate Evidence Pertaining to "The Trust for
Annie Pearl (White) Willis ("Petition") (i.e. where the Petition has sufficiently
met the requirements of Fed.R.Civ.P. 27). Petitioner has sought, since
November 25, 2020, to perpetuated disclosure and evidence of the Trust, so
that it will be available for judicial consideration in an 'Action for Declaration
of Rights to the Trust' and an 'Action for Declaration of Rights to the real
estate,' which Petitioner intends to file supplemental to the 'Petition for Writ
of Certiorari to the Court of Appeals for the Third Circuit' currently pending
in this Court (Docket #20-8176). The District Court refused to serve the

7

12 September 2021 4:42 PM

Petition upon Dolores Willis, currently, the "authorized signer" for the Trust,
as Executrix for the Estate of Annie Pearl Willis (ECF No. 27 p. 3-4 ¶6, p. 5
¶13, p. 25 Certificate of Service; See Also; p. 6 ¶15; ECF No. 78 Text; ECF No.
79 Text; and District Judge Memorandum Order, ECF No. 87; ECF No. 67-2
Forms 285 for Dolores Willis; ECF No. 70). As stated in the Petition, Dolores
Willis has knowledge, custody, control, and possession of the Trust
documents. Thus, the District Court refusal to serve the Petition upon
Dolores Willis has been prejudicial to Petitioner's Rule 27 Petition (ECF No.
1; re-filed at ECF No. 3; ECF No. 27; and ECF No. 126), and is now
prejudicial to Petitioner's federal.Court Actions, including Petitioner's Action
currently pending in this Court (Docket #20-8176), where disclosure and
evidence of the Trust would be unavailable in Petitioner's Action for
Declaration of Rights to the Trust and Action for Declaration of Rights to real
estate property (citing the Fourteenth Amendment Due Process Clause, and
First Amendment Petition Clause — See p. 12-13 of the Petition for Writ of
Certiorari Docket #20-8176). Petitioner is also prejudiced if the Trust
documents are not available in any post-judgment motion that she otherwise
intends to file in the Court of Appeals for the Third Circuit prior to a
December 2, 2021 "reasonable time" deadline.
15.The Petition for Writ of Certiorari has already been distributed as of July, 15,
2021 for a September 27, 2021 Conference. Petitioner would be deprived of
an immediate determination of her rights ("[T]he right to this relief ... does

8

12 September 2021 4:42 PM

not depend upon the condition of the witness, but upon the situation of the
party [petitioner], and [her] power to bring [her] rights to an immediate
investigation.")." In re Application of Checkosky, 142 F.R.D. 4, 8 n.2 (D.D.C.
1992) as to a Fed.R.Civ.P. 27 Petition).
16. Petitioner would be unduly prejudiced by a dismissal, with prejudice, of the
Petition to Perpetuate Evidence Pertaining to "The Trust for Annie Pearl
(White) Willis ("Petition"). If the Fed.R.Civ.P. 27 Petition is dismissed with
prejudice, Petitioner would be precluded from seeking judicial review,
pursuant to 42 Pa. C.S. § 7533, for a determination of rights to the Trust, and
precluded from seeking judicial review in an Action for Declaration of Rights
to the Trust in accordance with 28 U.S.C. § 2201(a) - Creation of remedy (i.e.
Declaration of Rights). Furthermore, a dismissal of the Fed.R.Civ.P. 27
Petition, with prejudice, would preclude any legal right that Petitioner may
have as to the financial information regarding the Trust and any related
accounts held by PNC; and would be detrimental to any right that Petitioner
may have as an 'authorized signer' for the Trust. Thus, a dismissal with
prejudice would be detrimental to any legal rights that Petitioner may have
as to the Trust, including a right to a judicial determination of rights to the
Trust.
17.A dismissal with prejudice of the Fed.R.Civ.P. 27 Petition to Perpetuate
Evidence Pertaining to "The Trust for Annie Pearl (White) Willis would be
unduly prejudicial in Petitioner's 'Action for Declaration of Rights to real

9

12 September 2021 4:42 PM

Estate,'

in this Court and in any post-judgment Motion that Petitioner

otherwise intends to file in the Third Circuit Court of Appeals.14 Petitioner
would be precluded from raising her fundamental, substantive Fourteenth
Amendment Constitutional (Due Process Clause) and First Amendment
(Petition Clause) claims as to real estate property, located in Allegheny
County, Pennsylvania, at 267 William Street, Pittsburgh, Pennsylvania,
15203 (Lot/B1k/Parcel ID# 4-H-229) ("real estate"), including a breach of
fiduciary duty as to the Trust and as to the real estate, and an aiding and
abetting of that breach, depriving a Fourteenth Amendment Constitutional
Right to property (See: 'Petition for. Writ of Certiorari,' Docket #20-8176,
p. 12-13).

(i.e.
Petitioner, otherwise, intends to use a disclosure and evidence of the Trust in post-judgment motions
for the
Appeals
of
Court
the
in
file
to
intends
Petitioner
that
Fed.R.Civ.P. 60 Motions; Recall a Mandate; or Reopen)
of
District
Western
the
for
Court
District
the
in
proceedings
further
Third Circuit; and/or in the event of

14

Pennsylvania.
10

18 September 2021 12:53 PM

RELIEF SOUGHT
WHEREFORE, Petitioner, Leslie Willis, respectfully, prays that this Court
issue a WRIT OF PROHIBITION that the District Court for the Western District of
Pennsylvania is prohibited from entering any order with prejudice, on the
Fed.R.Civ.P. 27 Petition to Perpetuate Evidence Pertaining to the Trust for Annie
Pearl (White) Willis' (Docket No. 20-1833); and further issue a WRIT IN
MANDAMUS/MANDATE that the District Court shall state what Fed.R.Civ.P.
Rule 27 requirements are not met in the 'Second Amended Petition' (ECF Document
No. 126-2); and further issue a WRIT OF PROHIBITION that the Motion for Leave
to File the 'Second Amended Petition' (ECF Document No. 126-2) and/or a 'Motion
for Leave to File a Third Amended Petition' in the Fed.R.Civ.P. 27 Petition (Docket
No. 20-1833) shall not be Denied.
WHEREFORE, Petitioner, Leslie Willis, respectfully, prays that if this
Petition/Motion is Denied by the Clerk or by.a single Judge, that the
Petition/Motion is considered by the Court En Banc; and that, in any event, under
the 6ircumstarices, the Petition/Motion is not Denied with Prejudice.

I declare under penalty of perjury that the foreg

is true and

Executed on September 18, 2021
/s/Leslie Willis, Petitioner

11

,••,1-.1717-.)
t..' t

•

1f
rtt: t• • %,',

• -0

•

•

JURISDICTIONAL STATEMENT
41"

C

. The ;Supreme Crourt jur*liction is,invokecL„hgreiA,, piursmant

,P

Rule 21, 28 U.S: ;Code § 1651 — Writs;Land/or pursuant to § 1367j(a)t -::.Suppleinental
Jurisdiction. The Court's relevant equity powers are invoked.
This 'Petition for Writ of Prohibition is filed in support of the Action for
Declaration of Rights to real estate property that Petitioner intends to file in this
Court; in :aid .of the Court's subject-matter jurisdiction pursuantAtaFed:RXiviP.49..Required'Joinder of Parties. Fodnstance, here. a (to_parties in Actions involving
real estate property, which is the subject-matter of: (1) the 'Petition for Writ of
Certiorari;' or (2) a `Petition kir Panel

arid/or (3) the post-judgment

Motions that Petitioner intends to file in the Court of Appeals for the Third Circuit;
or (4) in the event of further proceedings in the District Court for the Western
District of Pennsylvania.

RECEIVED
OCT 1 3 2021
OFFICE 0,F THE CLERK

28 U.S. Code § 1651 - "(a) The Supreme Court and all courts established by Act of Congress may issue a

I N:tREME COURT, U.S.

necessary or appropriate in aid of their respective jurisdictions and agreeable to the usages and principles of
law...;" 28 U.S.C. § 2201(a) "In a case of actual controversy within its jurisdiction ...any court of the United States,
upon the filing of an appropriate pleading, may declare the rights and other legal relations of any interested party
seeking such declaration, whetheror not further relief is or could be sought. Any such declaration shall have the
force and effect of a final judgment or decree and shall be reviewable as such."
No.
2 Fed.R.Civ.P. 19 (a)(1) (A); and (B)(i). See also District Court for the Western District of Pennsylvania Docket
20-1833, ECF Document No. 70)

CONSTITUTIONAL PROVISIONS
This 'Petition for Writ of Prohibition is filed in support of the Actions for
Declaration of Rights1 that Petitioner intends to file in this Court, in aid of the
Court's subject-matter jurisdiction in Petitioner's Actions in Federal Court, which
involve the following Constitutional provisions pertaining to real estate property:
U.S.C.A. Const. Amend. Xiv, § 1- Due Process Clause;
U.S.C.A. Const. Amend. I — Petition Clause - right to Petition the government
for redress of grievances;
U.S.C.A. Const. Amend. Xiv, § 1- Equal Protection Clause of the Fourteenth
Amendment (Section 1) of the United States Constitution;

for Declaration of Rights to the 'Trust for Annie Pearl (White) Willis,' and Action for Declaration of Rights
to real estate located in Allegheny County, Pennsylvania, 267 William Street, Pittsburgh, PA. 15203
(Block/Lot/Parcel ID # 4-H-229).

1Action

12 September 2021 4:42 PM

Estate,' in this Court and in any post-judgment Motion that Petitioner
otherwise intends to file in the Third Circuit Court of Appeals.14 Petitioner
would be precluded from raising her fundamental, substantive Fourteenth
Amendment Constitutional (Due Process Clause) and First Amendment
(Petition Clause) claims as to real estate property, located in Allegheny
County, Pennsylvania, at 267 William Street, Pittsburgh, Pennsylvania,
15203 (Lot/BlklParcel ID# 4-H-229) ("real estate"), including a breach of
fiduciary duty as to the Trust and as to the real estate, and an aiding and
abetting of that breach, depriving a Fourteenth Amendment Constitutional
Right to property (See: 'Petition for Writ of Certiorari,' Docket #20-8176,
p. 12-13).
THE RELIEF SOUGHT IN THIS 'PETITION FOR WRIT OF PROHIBITION' CANNOT BE OBTAINED IN ANY OTHER COURT
The Relief sought in this 'Petition for Writ of Prohibition' cannot be obtained in any other Court
(e.g. Court of Appeals for the Third Circuit) because of the timing and disposition of the Rule 27 Petition
in District Court, which is currently pending a decision as to a sua sponte dismissal, or otherwise, a
dismissal, with prejudice. A dismissal with prejudice, or a dismissal, would unduly prejudice and preclude
the relief that Petitioner seeks, including her right to an immediate determination of rights to the Trust,
delayed for almost eleven (11) years. (LW 10-1-2021) Petitioner's Action in this Court involves fundamental, substantive,
Constitutional rights to property (Due Process and Petition Clause). Hence, Petitioner intends to file a
Petition for Declaration of Rights to the Trust, and Declaration of Rights to real estate, a subject-matter of
Petitioner's Action in this Court. The Trust documents would be used as evidence in support of the
Declaration of Rights to real estate, which Petitioner intends to file in support of her Petition for Writ of Certiorari,
or in support of a Petition for Re-Hearing in this Court.
14

Petitioner, otherwise, intends to use a disclosure and evidence of the Trust in post-judgment motions (i.e.

Fed.R.Civ.P. 60 Motions; Recall a Mandate; or Reopen) that Petitioner intends to file in the Court of Appeals for the
Third Circuit; and/or in the event of further proceedings in the District Court for the Western District of
Pennsylvania.

10

10/1/2021 3:13 PM

The Relief sought in this 'Petition for Writ of Prohibition' cannot be obtained
in any other Court (e.g. Court of Appeals for the Third Circuit) because of the
timing and disposition of the Rule 27 Petition in District Court, which is currently
pending a decision as to a sua sponte dismissal, or otherwise, a dismissal, with
prejudice. A dismissal with prejudice, or a dismissal, would unduly prejudice and
preclude the relief that Petitioner seeks, including her right to an immediate
determination of rights to the Trust, delayed for almost eleven (11) years.
Petitioner's Action in this Court involves fundamental, substantive,
Constitutional rights to property (Due Process and Petition Clause). Hence,
Petitioner intends to file a Petition for Declaration of Rights to the Trust, and
Declaration of Rights to real estate, a subject-matter of Petitioner's Action in this
Court. The Trust documents would be used as evidence in support of the
Declaration of Rights to real estate, which Petitioner intends to file in support of
her Petition for Writ of Certiorari, or in support of a Petition for Re-Hearing in this
Court.

